App. 1
945 F.3d 915
United States Court of Appeals, Fifth Circuit.
Patsy WEATHERLY; Edith Wichman;
Michelle Morrison; Felix Bravo; Jon Hanna, et al,
Plaintiffs–Appellants
v.
PERSHING, L.L.C., Defendant–Appellee
Ethel Bronstein; Mauricio Bigit Posada; Miram
Dinora Moreno De Bigit; Martha G. Blanchet;
Jose Luis Cabrera Roca, et al, Plaintiffs–Appellants
v.
Pershing, L.L.C., Defendant–Appellee
Jose Diaz; Nancy Diaz; Herman Dittmar;
Magaly Vargas Dittmar; Amadeo Montero, et al,
Plaintiffs–Appellants
v.
Pershing, L.L.C., Defendant–Appellee
Tom Hawk; Salma Barbar; Alberto Barbar; Bernardo
Ramon Chamorro; Jose E. Colmenares, et al,
Plaintiffs–Appellants
v.
Pershing, L.L.C., Defendant–Appellee
Robert Powell; Carlos Alfonsi; Erika Alfonsi;
Ida Alterio; Raquel Bassan; Roberto Calderon; Linda
Calderon; Roberto Calvo Murillo; Diana Castresana;
Antonio Dotti; Delﬁna La Rosa; Jesus Garcia; Maria
Fernanda Gonzalez; Pablo Guedez; He Huang;
Rafael Camacho, Plaintiffs–Appellants

App. 2
v.
Pershing, L.L.C., Defendant–Appellee
Braulio A. Vargas Espinosa; Eduardo Belmonte;
Mauro Belmonte; Laura Ruiz; Gian Paolo Belmonte,
et al, Plaintiffs–Appellants
v.
Pershing, L.L.C., Defendant–Appellee
No. 18-11052
|
Consolidated with 18-11053, Consolidated with
18-11056, Consolidated with 18-11057, Consolidated
with 18-11072, Consolidated with 18-11087
|
FILED December 19, 2019
Attorneys and Law Firms
Brian Fitzpatrick, Vanderbilt University School of
Law, Nashville, TN, Michael E. Criden, Lindsey Caryn
Grossman, Criden & Love, P.A., South Miami, FL, Robert Cecil Gilbert, Esq., Kopelowitz Ostrow Ferguson
Weiselberg Gilbert, Coral Gables, FL, for Plaintiffs-Appellants.
Thomas Miles Farrell, Attorney, Houston, TX, Jeffrey
J. Chapman, New York, NY, Gilbert Dickey, Washington, DC, Susan E. Groh, Chicago, IL, Brian David
Schmalzbach, Richmond, VA, McGuireWoods, L.L.P.,
Kathy M. Klock, Akerman, L.L.P., West Palm Beach,
FL, for Defendant-Appellee.
Before SOUTHWICK, WILLETT, and OLDHAM, Circuit Judges.

App. 3
Opinion
DON R. WILLETT, Circuit Judge:
These consolidated cases arise from the notorious
Stanford Ponzi scheme, the second-biggest investor
fraud in U.S. history. Convicted ﬁnancier Allen Stanford, now serving a 110-year prison term, sold billions
of dollars’ worth of bogus CDs to unwitting investors,
many of them retirees seeking “safe” investments for
their life savings, paying each new investor-victim
“proﬁts” out of funds solicited from newly duped investor-victims. Stanford oversaw a sprawling international ﬁnancial empire. And a phony one.
Stanford used Stanford Group Company to refer
investors to Stanford International Bank, Ltd.
Plaintiffs–Appellants (the Investors) purchased what
they thought were low-risk CDs from SIBL. Defendant–
Appellee, Pershing, provided clearing services for
SGC.1 The Investors allege that Pershing breached its
ﬁduciary duty and committed indirect fraud under
Florida law. But there is a snag. Both claims were ﬁled
late under Florida’s statute of limitations. The Investors contend that they were entitled to more time—
that the statute of limitations should be tolled because
they were putative class members in a previous class
action against Pershing. The district court disagreed,

1

Clearing services do things like executing and settling
trades, issuing statements, processing wire transfers, and maintaining custody of stocks and bonds.

App. 4
holding that the Investors’ claims were late and had no
hope of tolling relief.
The question on appeal is simply stated: Are the
Investors entitled to tolling? They are not. The Florida
Legislature has laid out an exclusive list of tolling exceptions, and class actions are not on the list. The foremost task of legal interpretation is divining what the
law is, not what the judge-interpreter wishes it to be.
We cannot embellish Florida law under the guise of interpreting it. All to say, we decline to infer such an exception where one does not plainly exist. Embroidering
the statute may scratch an equitable itch, but “law,
without equity, though hard and disagreeable, is much
more desirable for the public good, than equity without
law: which would make every judge a legislator, and
introduce most inﬁnite confusion.”2 Judges must resist
the temptation to alter a statute to realign perceived
inequities, particularly where, as here, the legislature
has proven itself adept at listing exceptions.
The federal policy of tolling for putative class
members cannot override the governing statute. Because we hold that the Investors’ claims are barred by
Florida’s statute of limitations, we do not reach the
merits of those claims.
We AFFIRM the district court’s judgment.

2

1 WILLLIAM BLACKSTONE, COMMENTARIES ON
THE LAW OF ENGLAND 62 (4th ed. 1770).

App. 5
I
Stanford’s infamous Ponzi scheme became public
in February 2009, when the SEC ﬁled its civil complaint. The story was in national newspapers within
two days. Later that year, class counsel for swindled
investors ﬁled Turk v. Pershing, LLC, No. 9-02199 (N.D.
Tex. Nov. 18, 2009), alleging that Pershing, as Stanford’s clearing agent, (1) “was aware or should have
been aware of Stanford’s scheme” and (2) proﬁted from
Stanford’s shady dealings. Turk had a putative nationwide class of all persons who bought Stanford CDs. But
counsel in Turk eventually offered to narrow its Florida subclass to exclude plaintiffs who did not transfer
money directly through Pershing.
This case stems from Turk counsel’s attempt to
narrow its Florida subclass; the plaintiffs here are
those former Turk plaintiffs who did not transfer
money directly through Pershing. The Investors ﬁled
Weatherly, the ﬁrst of these cases, on November 20,
2013, and the other ﬁve cases between January 28,
2015, and February 2, 2015—all in the Southern District of Florida. The cases were transferred to the
Northern District of Texas, home of the Stanford multidistrict litigation.
The Investors assert two claims against Pershing.
First, they allege that Pershing committed indirect
fraud under Florida law.3 Second, they allege Pershing
3

Under this theory, the Investors allege that Pershing made
misleading statements to ﬁnancial advisors, who repeated them
to Plaintiffs.

App. 6
aided and abetted Stanford’s breaches of ﬁduciary duty
under Florida law.4 A four-year statute of limitations
applies to both claims.5
Pershing moved for summary judgment. It argued
that all claims were barred by limitations and that the
Investors lacked evidence to establish elements on
each claim. The district court granted the motion based
on the limitations defense. It assumed the Investors
should have known of their claims, at the latest, by November 18, 2009, when the Turk class action was ﬁled.
Because the Investors ﬁled the ﬁrst of these cases on
November 20, 2013—four years and two days later—
these cases were untimely. The district court rejected
the argument that the limitations period tolled while
the Investors were putative members of the Turk
class. It did not address Pershing’s merits-based arguments.

4

Under this theory, the Investors allege that Pershing knew
that Stanford brokers were breaching ﬁduciary duties to investors, and Pershing disregarded suspicious information and continued to accept orders from Stanford brokers.
5
FLA. STAT. § 95.11(3)(j), (o).

App. 7
II
The standards governing this appeal are well settled.
First, the standard of review. We review “grant of
summary judgment de novo, applying the same standard on appeal that is applied by the district court.”6
Second, the summary-judgment standard. Under
Rule 56, summary judgment is proper “if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.”7 We review “a district court’s determinations of state law de novo.”8
III
Without tolling, all six cases were indisputably
ﬁled late. The Investors claim that Florida law and federal law support tolling during putative class actions.
Pershing says, “no” on both counts. Pershing also contends that not only do the Investors lose under the
statute of limitations, but summary judgment is warranted on the merits. We ﬁnd that neither Florida nor
federal law offer the Investors tolling relief, so we decline to reach the merits.
6

Ocwen Loan Servicing, L.L.C. v. Berry, 852 F.3d 469, 471
(5th Cir. 2017) (quoting Tiblier v. Dlabal, 743 F.3d 1004, 1007
(5th Cir. 2014)) (ellipsis omitted).
7
FED. R. CIV. P. 56.
8
Ocwen, 852 F.3d at 472 (quoting Lozovyy v. Kurtz, 813 F.3d
576, 580 (5th Cir. 2015)).

App. 8
A
We begin our discussion with Florida law. Because
the Investors ﬁled these cases in federal court in Florida, we apply Florida substantive law to the question
of whether the Investors’ presence in the Turk lawsuit
tolled the statute of limitations for their claims in this
case.9 The Florida Supreme Court has not decided
whether a statute of limitations is tolled during a putative class action. So we must make “an Erie guess as
to what the [Florida] Supreme Court would most likely
decide.”10 We base our guess, “[a]s a practical matter,”
on:
(1) decisions of the state supreme court in
analogous cases, (2) the rationales and analyses underlying state supreme court decisions
on related issues, (3) dicta by the state supreme court, (4) lower state court decisions,
(5) the general rule on the question, (6) the
rulings of courts of other states to which state
courts look when formulating substantive law

9

The multidistrict litigation transfer to Texas does not
change the choice of law. 15 CHARLES ALAN WRIGHT & ARTHUR R. MILLER, FEDERAL PRACTICE AND PROCEDURE
§ 3867 (4th ed. 2019) (“ “[T]here is no doubt that in diversity of
citizenship cases, the MDL transferee court must apply the substantive law . . . that would have been applied in the transferor
forum.”).
10
Herrmann Holdings Ltd. v. Lucent Techs. Inc., 302 F.3d
552, 558 (5th Cir. 2002).

App. 9
and (7) other available sources, such as treatises and legal commentaries.11
When making an Erie guess, we do not “adopt innovative theories of state law” but aim simply “to apply
that law as it currently exists.”12 And we “are emphatically not permitted to do merely what we think best;
we must do that which we think the state supreme
court would deem best.”13
Here, a statute governs the question before us.
And when a statute controls, our ﬁrst stop (and usually
our last) is the statutory text. “Text is the alpha and
omega of the interpretive process.”14 Our precedent demands “unswerving ﬁdelity to statutory language,”15
meaning we take lawmakers at their word and presume they meant what they said.16
Florida law happens to provide a statutory list of
grounds for tolling its statutes of limitations. As the
district court recognized, and as all parties agree, putative class actions are not on the list. In Florida, statutes of limitations are tolled by:

11

In re DePuy Orthopaedics, Inc., 888 F.3d 753, 765 n.5 (5th
Cir. 2018) (brackets omitted) (quoting Centennial Ins. Co. v. Ryder Truck Rental, Inc., 149 F.3d 378, 382 (5th Cir. 1998)).
12
Id. (quoting Jackson v. Johns-Manville Sales Corp., 781
F.2d 394, 397 (5th Cir. 1986) (en banc)).
13
Id. (brackets omitted).
14
United States v. Maturino, 887 F.3d 716, 723 (5th Cir.
2018).
15
Reed v. Taylor, 923 F.3d 411, 415 (5th Cir. 2019).
16
Id.

App. 10
(a) Absence from the state of the person to be
sued.
(b) Use by the person to be sued of a false
name. . . .
(c) Concealment in the state of the person to
be sued so that process cannot be served
on him or her.
(d) The adjudicated incapacity, before the
cause of action accrued, of the person entitled to sue. . . .
(e) Voluntary payments by the alleged father
of the child in paternity actions during
the time of the payments.
(f ) The payment of any part of the principal
or interest of any obligation or liability
founded on a written instrument.
(g) The pendency of any arbitral proceeding
pertaining to a dispute that is the subject
of the action.
(h) The period of an intervening bankruptcy. . . .
(i)

The minority or previously adjudicated
incapacity of the person entitled to
sue. . . .17

Importantly, the statute itself, in the very next
subpart, declares that the above list is exclusive—explicitly disclaiming any other grounds for tolling: “A
disability or other reason does not toll the running of
17

FLA. STAT. § 95.051(1).

App. 11
any statute of limitations except those speciﬁed in this
section, s. 95.091 [tax actions], the Florida Probate
Code, or the Florida Guardianship Law.”18 The Florida
Supreme Court generally takes a straightforward view
of § 95.051(2)’s exclusivity provision. The State’s high
court has held that “the tolling statute speciﬁcally precludes application of any tolling provision not speciﬁcally provided therein.”19 And the tolling statute
“delineates an exclusive list of conditions that can ‘toll’
the running of the statute of limitations.”20
Despite the clear language of § 95.051 and the
Florida Supreme Court’s insistence that all other tolling provisions are excluded, the Investors contend that
two Florida Supreme Court cases—Lance v. Wade21
and Engle v. Liggett Group, Inc.22—have essentially
added class actions to the statutory list. The Investors
argue that Lance and Engle stand for the proposition
that, in Florida, “class members are entitled to tolling
while a putative class action is pending.”23 But the
Florida Supreme Court did not actually announce this
rule in either case, and we are not inclined to ﬁnd

18

Id. § 95.051(2).
Hearndon v. Graham, 767 So. 2d 1179, 1185 (Fla. 2000).
20
Major League Baseball v. Morsani, 790 So. 2d 1071, 1075
(Fla. 2001) (emphasis added).
21
457 So. 2d 1008 (Fla. 1984).
22
945 So. 2d 1246 (Fla. 2006).
23
Brief for Appellant at 16, Weatherly v. Pershing, No. 1811052 (5th Cir. ﬁled Feb. 11, 2019).
19

App. 12
innovative theories of state law while making an Erie
guess.
In Lance, the court reversed a plaintiff class’s
judgment—decertifying the class—because Florida
law did not recognize class actions based on fraud on
individual contracts.24 But the court granted the decertiﬁed class members a measure of relief from the harsh
result of decertiﬁcation:
We ﬁnd that the members of this class, having
apparently relied on this cause of action,
should be entitled to proceed individually
without prejudice against the sellers for
breach of contract, fraud, speciﬁc performance, or rescission. Given the circumstances
of this action, we ﬁnd that the purchasers
should not be subject to the defenses of the
statute of limitations or laches, providing
that their actions are commenced within a
reasonable time after the remand of this decision.25
The passage above is the last full paragraph of the
opinion and is introduced with the phrase: “We ﬁnd
that the members of this class . . . ”26 The language the
Investors rely on is in the last substantive sentence of
the opinion and begins with: “Given the circumstances
of this action.”27 If the Florida Supreme Court wanted
to introduce into Florida law, in plain contravention of
24
25
26
27

457 So. 2d 1008, 1011 (Fla. 1984).
Id. (emphasis added).
Id. (emphasis added).
Id. (emphasis added).

App. 13
a Florida statute, that all future putative class action
claimants are entitled to tolling, this was an odd way
to do it. The more logical read is that the court simply
provided equitable relief from a limitations defense because the decertiﬁed class members relied on the
faulty cause of action. And that reliance arose because
the lower court allowed the class action to proceed to a
jury verdict. The Florida Supreme Court thus allowed
a “reasonable time” for class members to reﬁle individually. The Lance court provided a narrow exception for
an exceptional circumstance, not a rule of general applicability.
The Investors’ other Florida Supreme Court case
is Engle v. Liggett Group, Inc. In Engle, the court reversed in part the trial court’s decision that a tobacco
case would proceed as a class action in three phases:
(1) liability and punitive damages; (2) aggregate compensatory damages; and (3) individual compensatory
damages.28 After the ﬁrst and second phases, the Florida Supreme Court held that “continued class action
treatment is not feasible and that upon remand the
class must be decertiﬁed.”29 But the court made it easier for individual class members to proceed with their
claims:
Individual plaintiffs within the class will be
permitted to proceed individually with the
ﬁndings set forth above given res judicata
effect in any subsequent trial between
28
29

945 So. 2d 1246, 1276–77 (Fla. 2006).
Id. at 1277.

App. 14
individual class members and the defendants,
provided such action is ﬁled within one year
of the mandate in this case.30
Engle was even more peculiar than Lance.31 The
Florida Supreme Court later explained in an Engleprogeny case that the Engle court “did not decertify the
class in a traditional sense.”32 Rather, the court “conferred upon the class members two beneﬁts:” (1) equitable tolling for one year, and (2) res judicata effect of
Phase One’s common core ﬁndings.33 So the court saw
itself as conferring an equitable beneﬁt on the Engle
class members, not developing a generally applicable
tolling doctrine for all future class actions.
Unlike the case before us, both Lance and Engle
involved certiﬁed classes that were later decertiﬁed on
appeal. And plaintiffs in both cases had already tried
their cases to favorable jury verdicts. The Florida Supreme Court did not cite Florida’s tolling statute or
even use the word “toll” in either case. That silence is
not dispositive. But it is curious. If the court was creating a new tolling rule applicable to all future putative class actions, why not use the word “toll”?
30

Id.
Interestingly, the Engle majority did not cite Lance. But
one dissenting Justice did in a footnote: “I believe that this procedure would conﬁrm with what this Court allowed in Lance v.
Wade. . . .” Id. at 1282 n.15 (Wells, J., concurring in part and dissenting in part).
32
R.J. Reynolds Tobacco Co. v. Ciccone, 190 So. 3d 1028,
1037 (Fla. 2016).
33
Id.
31

App. 15
Pershing argues that in these two cases, the Florida Supreme Court applied a “savings” period—not a
tolling rule—to the claims of decertiﬁed class members. We ﬁnd this argument unconvincing.34 But there
is no reason to parse the distinctions between a tolling
rule and a savings period. We may not expand Florida
law to bring it clarity. And we need not because one
thing is clear: Neither Lance nor Engle announced a
broadly applicable rule that putative class action
claimants are entitled to tolling. The Florida Supreme
Court’s holding in each case appears, in the plain language of each opinion, to tailor the relief dispensed to
the equitable needs of the particular plaintiffs. And
nothing more. Nothing in Engle or Lance suggests that
the Florida Supreme Court would depart from the
plain language of § 95.051 when dealing with Plaintiffs here—who were never certiﬁed as a class by a
lower court and never tried their case to a favorable
jury verdict in reliance on a court’s class certiﬁcation.
But that doesn’t settle our question of tolling under Florida law. When making an Erie guess, if the
state supreme court has not spoken, we defer to intermediate state appellate courts that have addressed the
34

Pershing’s authorities do not lend much support to this
distinction. See Universal Eng’g Corp. v. Perez, 451 So. 2d 463,
467 (Fla. 1984) (discussing enacted savings clauses in some Florida statutes). But an on-point law review note concludes that
Florida does not recognize class tolling and recommends that the
legislature remedy this with a “savings statute.” Laura Liles,
Note, For Whom the Statute Tolls? Not Even the Sacred Heart:
Florida Class Action Jurisdiction and the Need for a Savings Statute to Toll the Limitations Period, 69 FLA. L. REV. 989 (2017).

App. 16
issue, unless we are “convinced by other persuasive
data that the highest court of the state would decide
otherwise.”35 The Investors offer several Florida intermediate state court decisions that they contend recognize class action tolling as a general principle of
Florida law. But most of the cases the Investors cite are
Engle-progeny cases, in which intermediate courts are
grappling with, among other things, whether plaintiffs
qualify as Engle class members.36 These cases don’t
shed light on the application of Engle to all other class
action claimants. They merely stand for the unremarkable proposition that lower courts followed the Florida

35

Herrmann Holdings, 302 F.3d at 558 (quoting First Nat’l
Bank v. Trans Terra Corp., 142 F.3d 802, 809 (5th Cir. 1998)).
36
See e.g., R.J. Reynolds Tobacco Co. v. Shefﬁeld, 266 So. 3d
1230 (Fla. 5th Dist. Ct. App. 2019); Philip Morris USA, Inc. v.
Hallgren, 124 So. 3d 350 (Fla. 2d Dist. Ct. App. 2013); Soffer v.
R.J. Reynolds Tobacco Co., 106 So. 3d 456 (Fla. 1st Dist. Ct. App.
2012); Gaff v. R.J. Reynolds Tobacco Co., 129 So. 3d 1142 (Fla. 1st
Dist. Ct. App. 2013). Gaff is probably the Investors’ strongest
Engle-progeny case. There, the court explained: “For the purposes
of this decision, we assume the ﬁling of the Engle class action
complaint tolled the running of the statute of limitations as to all
potential members of the class. . . .” Id. at 1145. This language
gives credence to the Investors’ position because (1) it indicates
that tolling was triggered by the ﬁling of the complaint, and (2)
the court cites American Pipe & Construction Co. v. Utah as support (American Pipe established the federal policy of tolling for
class actions. 414 U.S. 538, 554, 94 S.Ct. 756, 38 L.Ed.2d 713
(1974)). But Gaff is not dispositive for two reasons: (1) the court
doesn’t explicitly say that non-Engle putative class action claimants are entitled to tolling, and (2) the above language is dicta
because the court found that the plaintiff ’s claim was untimely.
The court’s assumption that the complaint triggered tolling was
thus irrelevant to its holding.

App. 17
Supreme Court’s instructions for dealing with those
who qualify as Engle class members.
But the Investors do cite two non-Engle-progeny
intermediate state court decisions: Latman v. Costa
Cruise Lines N.V.37 and Browning v. Angelﬁsh Swim
School, Inc.38 Latman is hardly on point because the
limitations provision that was “tolled” was simply a
contractual provision on the back of a cruise ticket—
not a statute—let alone a Florida tolling statute with
speciﬁc exclusions.39 For their authority in Browning,
the Investors cite a footnote in a dissent. There, the
dissenting judge claimed that “the statute of limitations is typically tolled for asserted class members who
later ﬁle actions of their own from the time a class complaint is ﬁled to the time certiﬁcation is denied.”40 The
judge appears to be taking the Investors’ view of Florida law. But one dissenting judge in a footnote is not
exactly overwhelming evidence of a broadly applicable
tolling rule, especially considering that tolling was not
even an issue in Browning.41 In short, this statement
was dicta in a footnote of a dissent—completely irrelevant to the issue that was before the court. If that is

37

758 So. 2d 699 (Fla. 3d Dist. Ct. App. 2000).
1 So. 3d 355 (Fla. 3d Dist. Ct. App. 2009).
39
Latman, 758 So. 2d at 704.
40
Browning, 1 So. 3d at 362 n.12 (Shepherd, J., concurring
in part and dissenting in part).
41
The dissenting judge only mentioned tolling in a footnote
to counter his warning about the dangers of litigants resting on
their claims. Id. at 362.
38

App. 18
the best the Investors have to offer, they’re on shaky
ground.
So with underwhelming evidence that Florida’s intermediate courts apply tolling for putative class actions, we look to other pieces of “persuasive data” for
what the Florida Supreme Court would do. The ﬁrst
and best piece of data is the tolling statute itself, which
we have already discussed. But we also look to other
courts. And we are not the ﬁrst federal court to consider this question. The Second Circuit, the D.C. Circuit, and one federal district court in Florida have held
unequivocally that Florida does not recognize class action tolling.42 One federal appellate court, the Eleventh
Circuit, appears to differ, but its provocative statement
is not actually a holding. In Raie v. Cheminova, Inc.,
the Eleventh Circuit observed: “There is no dispute
that American Pipe[’s] federal policy of tolling for class
actions] has been followed in Florida state courts.”43
42

Becnel v. Deutsche Bank, AG, 507 F. App’x 71, 73 (2d Cir.
2013) (“Florida does not allow tolling during the pendency of class
action lawsuits no matter where they are ﬁled.”) (citing FLA.
STAT. § 95.051); Adams v. Deutsche Bank AG, 529 F. App’x 98,
100 (2d Cir. 2013) (same); In re Vitamins Antitrust Litig., 183 F.
App’x 1, 1 (D.C. Cir. 2006) (citing FLA. STAT. § 95.051) (“The
Florida legislature has enumerated eight scenarios in which the
applicable statute of limitations is tolled, and a pending class action is not one of them.”); Senger Bros. Nursery v. E.l. [sic] Dupont
de Nemours & Co., 184 F.R.D. 674, 680–82 (M.D. Fla. 1999)
(olding [sic] that tolling of Florida’s statutes of limitations “is
permitted in precise situations set out within Florida Statute
§ 95.051” and that class action claimants are not entitled to tolling under American Pipe & Construction Co. v. Utah, 414 U.S.
538, 94 S.Ct. 756, 38 L.Ed.2d 713 (1974)).
43
336 F.3d 1278, 1282 (11th Cir. 2003).

App. 19
But that proposition was not part of the holding in
Raie. The court ultimately rejected tolling because the
plaintiff was not a member of the class he relied on.44
So the weight of federal appellate authority is that
Florida law does not recognize class action tolling.
In sum, it is far from clear that Florida law recognizes class action tolling, and, as an Erie court, we decline to announce such a rule before the Florida
Supreme Court has done so. We ﬁnd that under Florida
law, class action claimants are not entitled to tolling.45
The Investors, however, do not rest their claims entirely on Florida law.
B
The Investors contend that even if Florida law rejects class action tolling, federal law should govern.
They have an uphill battle. Under American Pipe &
Construction Co. v. Utah, federal law does toll limitations during a putative class action.46 In a diversity
case, we apply federal procedural rules and state
substantive law.47 It’s not always terribly clear what
44

Id. at 1283.
Pershing argues that even if Florida law recognized class
action tolling, the Investors would not be able to beneﬁt because
Florida law does not recognize cross-jurisdictional tolling (e.g.,
the Turk suit was ﬁled outside of Florida’s courts). Red Br. at 29.
Because we ﬁnd that Florida law doesn’t recognize class action
tolling, we don’t take up this argument.
46
414 U.S. 538, 554, 94 S.Ct. 756, 38 L.Ed.2d 713 (1974).
47
Hanna v. Plumer, 380 U.S. 460, 465, 85 S.Ct. 1136, 14
L.Ed.2d 8 (1965).
45

App. 20
counts as substance and what counts as procedure.48
But we have already answered the question before us:
whether to apply American Pipe tolling or state tolling
rules.49 In Vaught v. Showa Denko K.K., we found that
“the Supreme Court has stated that generally, for diversity actions, a federal court should apply not only
state statutes of limitation but also any accompanying
tolling rules.”50 In Vaught, the best authority available
to the plaintiffs for applying American Pipe tolling was
Byrd v. Blue Ridge Rural Electric Cooperative, Inc.51
The same is true here for the Investors.
In Byrd, the issue was whether, in a diversity case,
the judge or the jury should decide the question of an
employer’s immunity under a state workers’ compensation law.52 The Supreme Court held that the federal
rule should govern because the state rule was not “an
integral part of the special relationship created by the
statute.”53 Rather, the state rule was “merely a form
48

Erie R. Co. v. Tompkins, 304 U.S. 64, 92, 58 S.Ct. 817, 82
L.Ed. 1188 (1938) (Reed, J., concurring) (“The line between procedural and substantive law is hazy. . . .”); see also ERWIN
CHEMERINKSKY, FEDERAL JURISDICTION 365 (7th ed.
2016) (“The problem is that distinctions between substance and
procedure are inherently ephemeral and thus difﬁcult to draw.”).
49
Vaught v. Showa Denko K.K., 107 F.3d 1137, 1143 (5th Cir.
1997).
50
Id. at 1145 (citing Walker v. Armco Steel Corp., 446 U.S.
740, 750–53, 100 S.Ct. 1978, 64 L.Ed.2d 659 (1980)).
51
Id.
52
356 U.S. 525, 78 S.Ct. 893, 2 L.Ed.2d 953 (1958).
53
Id. at 535, 78 S.Ct. 893. An Erie analysis would typically
entail two antecedent questions before getting to the federalinterest question articulated in Byrd. But we focus our attention

App. 21
and mode of enforcing the immunity and not a rule intended to be bound up with the deﬁnition of the rights
and obligations of the parties.”54 But the federal policy
of having juries decide disputed fact questions was an
on the Byrd balancing test because that was where the battle was
fought in Vaught and because that is where the parties disagree
here. The Investors don’t mount an argument under the ﬁrst Erie
question, and they breeze past the second in a footnote. The Investors’ main argument—and only plausible argument under
Erie—is that an application of Bryd [sic] yields a different result
here than it did in Vaught. So that is where we direct our analysis.
But even if the parties’ arguments had implicated each step
of the Erie inquiry, the outcome would be no different. The ﬁrst
question under Erie is “whether the scope of the Federal Rule in
fact is sufﬁciently broad to control the issue before the Court.”
Walker v. Armco Steel Corp., 446 U.S. 740, 749–50, 100 S.Ct.
1978, 64 L.Ed.2d 659 (1980). The federal rule must be applied “if
it represents a valid exercise of Congress’ rulemaking authority,
which originates in the Constitution and has been bestowed on
[the Supreme] Court by the Rules Enabling Act.” Burlington N.
R.R. Co. v. Woods, 480 U.S. 1, 5, 107 S.Ct. 967, 94 L.Ed.2d 1
(1987). Here, the federal rule is not broad enough because there
is no relevant federal rule. The Supreme Court recently held that
the American Pipe tolling rule was not mandated by the text of a
federal statute or rule. Cal. Pub. Emps. Ret. Sys. v. ANZ Sec., Inc.,
___ U.S. ___, 137 S. Ct. 2042, 2051–52, 198 L.Ed.2d 584 (2017).
The second Erie question is whether the choice between the state
and federal rule would “determine the outcome of a litigation.”
Guaranty Trust Co. v. York, 326 U.S. 99, 109, 65 S.Ct. 1464, 89
L.Ed. 2079 (1945). If applying state law would likely determine
the outcome, the state law must be applied. This inquiry must be
guided by the “twin aims of the Erie rule: discouragement of forum-shopping and avoidance of inequitable administration of the
laws. Gasperini v. Ctr. for Humanities, Inc., 518 U.S. 415, 428,
116 S.Ct. 2211, 135 L.Ed.2d 659 (1996) (quoting Hanna v. Plumer,
380 U.S. 460, 468, 85 S.Ct. 1136, 14 L.Ed.2d 8 (1965)). Both aims
clearly counsel in favor of applying Florida’s tolling rule.
54
Id. at 536, 78 S.Ct. 893.

App. 22
“essential characteristic” of federal law, “under the inﬂuence—if not the command—of the Seventh Amendment.”55
In Vaught, we applied Byrd and found that the federal interest in class action tolling was “strong.” But
that interest did “not trump the Texas tolling rule.”56
Unlike the conﬂicting laws in Byrd, ignoring the federal rule on tolling would not displace the U.S. Constitution or federal law.57 So without federal law or a
federal rule of civil procedure, the federal government’s interest in tolling would not overpower a strong
state interest.58 And Texas’s interest had “quite considerable depth” because “a tolling rule is an integral part
of a statute of limitations.”59
The federal interest in American Pipe tolling is the
same here as it was in Vaught, so the Investors’ only
argument is that Florida’s interest in its tolling rule is
weaker than Texas’s. And indeed, that is their argument. They contend that Florida’s interest is “nonexistent” because (1) “all the state courts in Florida have
concluded that there is class action tolling”60 and (2)
Florida’s legislature has never “said anything in

55

Id. at 537, 78 S.Ct. 893.
Vaught, 107 F.3d at 1147
57
Id.
58
Id.
59
Id. (internal quotation marks omitted).
60
Brief for Appellant at 37, Weatherly v. Pershing, No. 1811052 (5th Cir. ﬁled Feb. 11, 2019).
56

App. 23
derogation of class action tolling.”61 If the Investors’
ﬁrst point were correct, we wouldn’t be discussing federal law because Florida law would simply govern. And
to their second point: The Florida Legislature did
speak by enacting § 95.051. If tolling were a matter of
trivial concern, the legislators would not have troubled
themselves with writing a law. We can infer from the
statute itself that Florida has expressed a strong interest in how its statutes of limitations are, or are not,
tolled.
And this inference follows directly from our holding in Vaught. We found that Texas’s interest in its tolling rule was deep precisely because a tolling rule is a
means of enforcing a statute of limitations—“a matter
of considerable importance to Texas, one reﬂecting a
deliberate policy choice by its legislature.”62 We are
bound to follow Vaught,63 and there is no sound reason
why Florida’s statute of limitations should fair [sic]
more poorly than Texas’s.
Plus, the U.S. Supreme Court has made clear that
American Pipe is not meant to displace statutes. In
American Pipe, the Court held that its court-made rule
would only function “under certain circumstances not
61

Id.
Vaught, 107 F.3d at 1147.
63
Mercado v. Lynch, 823 F.3d 276, 279 (5th Cir. 2016) (“Under our rule of orderliness, ‘one panel of our court may not overturn another panel’s decision, absent an intervening change in
the law, such as by a statutory amendment, or the Supreme
Court, or our en banc court.’ ”) (quoting Jacobs v. Nat’l Drug Intelligence Ctr., 548 F.3d 375, 378 (5th Cir. 2008)).
62

App. 24
inconsistent with the legislative purpose.”64 And in
California Public Employees’ Retirement System v.
ANZ Securities, Inc., the Court clariﬁed that because
American Pipe derived from equity principles, it could
not alter the unconditional language and purpose of a
statute of repose.65 A statute of repose is designed to
“grant complete peace to defendants” and thus “supersedes the application of a tolling rule based in equity.”66
Federal law is unavailing to the Investors because the
only federal rule they can point to is one grounded in
the “traditional equitable powers of the judiciary.”67
But equity does not empower judges to contravene the
plain language of a statute.68 When interpreting statutes, our task is to be neither generous nor parsimonious, but faithful to what the words actually say.
C
The Investors argue that if Florida law doesn’t
recognize class action tolling and if federal law is
64
65

American Pipe, 414 U.S. at 559, 94 S.Ct. 756.
___ U.S. ___, 137 S. Ct. 2042, 2051–52, 198 L.Ed.2d 584

(2017).
66

Id. at 2052.
Id.
68
The Investors also argue that it might be unconstitutional
for Florida not to recognize class action tolling. Under Federal
Rule of Civil Procedure 23, some class actions do not permit any
plaintiffs to opt out. So the Investors contend that the lack of tolling might deprive them of a claim without due process. But the
Turk class action was ﬁled under Rule 23(b)(3), which permits
opt-outs. So the due process issue is not presented for decision
here.
67

App. 25
unavailing, they are still entitled to approximately
eight months of “equitable tolling” for a period when
Turk was stayed. The district court stayed Turk from
September 2011 to May 2012 while an appeal from another case was appealed to us.69 The issue on appeal
was whether the federal Securities Litigation Uniform
Standards Act of 1998 barred some state-law claims in
the Stanford litigation.70 The Turk district court believed SLUSA barred most of the Turk class’s claims,
so it stayed the case pending appellate review. In Roland, we reversed the district court on that issue,71
which allowed Turk to proceed.
The Investors contend that the district court’s stay
of Turk provides relief because under Machules v. Department of Administration, Florida law provides for
equitable tolling.72 And the Investors maintain that adverse binding precedent makes a claim futile and entitles a plaintiff to equitable tolling from a statute of
limitations.73
We disagree.
69

See Order, Turk v. Pershing, LLC, No. 9-02199 (N.D. Tex.
May 21, 2012), ECF No. 73; Order, Turk v. Pershing, LLC, No. 902199 (N.D. Tex. Sept. 30, 2011), ECF No. 69.
70
Roland v. Green, 675 F.3d 503, 504–07 (2012).
71
Id. at 506–07.
72
See 523 So. 2d 1132, 1134 (Fla. 1988) (equitably tolling limitations where plaintiff ’s employer lulled him into inaction).
73
Cf. Menominee Indian Tribe v. United States, ___ U.S. ___,
136 S. Ct. 750, 757, 193 L.Ed.2d 652 (2016) (acknowledging the
possibility that “actually binding precedent that is subsequently
reversed” could support equitable tolling).

App. 26
First, tolling due to a stay is not on the exclusive
list in § 95.051.74 Second, the Investors’ state-court authority, Machules, is distinguishable because it tolled
an administrative rule—not a statute of limitations.75
Third, an adverse district court decision on appeal is
not the kind of event that invokes equitable tolling.
This was not a situation where a plaintiff “ha[d] been
misled or lulled into inaction, ha[d] in some extraordinary way been prevented from asserting his rights, or
ha[d] timely asserted his rights mistakenly in the
wrong forum.”76 Plus, even if adverse binding precedent could invoke equitable tolling, district court decisions are not binding precedent, even in the same
district court.77 For all these reasons, equitable tolling
is not available to the Investors.
IV
Our constitutional design confers on the judiciary
the power to adjudicate, but not to legislate. Florida
law dictates today’s outcome, and we cannot supplant
our wisdom for that of the legislature.
The Investors claims are time-barred by the state
statute of limitations. Because Florida law does not
recognize putative class actions in § 95.051’s exclusive
list of tolling exceptions and because American Pipe is
74

FLA. STAT. § 95.051.
Machules, 523 So. 2d at 1133.
76
Id. at 1134.
77
Joseph W. Mead, Stare Decisis in the Inferior Courts of the
United States, 12 NEV. L.J. 787, 800–02 (2012).
75

App. 27
unavailing, we decline to reach the merits of the Investors’ claims.
We AFFIRM the judgment of [sic] district court.

App. 28
322 F.Supp.3d 746
United States District Court, N.D. Texas,
Dallas Division.
Patsy WEATHERLY, et al., Plaintiffs,
v.
PERSHING, LLC, Defendant.
Civil Action No. 3:14-CV-0366-N
|
Signed 07/12/2018
Attorneys and Law Firms
Robert Cecil Gilbert, Kopelowitz Ostrow Ferguson
Weiselberg Gilbert, Coral Gables, FL, Scott David
Hirsch, Charles E. Scarlett, Scarlett & Hirsch PA, Boca
Raton, FL, Jason G. Andrew, Lindsey C. Grossman, Michael E. Criden, Criden & Love PA, South Miami, FL,
for Plaintiffs.
Kathy M. Klock, Jonathan Brennan Butler, Akerman
LLP, West Palm Beach, FL, Thomas M. Farrell,
McGuireWoods LLP, Houston, TX, Danielle M. Kudla,
Jeffrey J. Chapman, McGuireWoods LLP, New York,
NY, Michael F. Easley, Jr., McGuireWoods LLP, Raleigh, NC, Stanley A. Roberts, McGuireWoods LLP,
Richmond, VA, Susan Groh, McGuireWoods, Chicago,
IL, for Defendant.
MEMORANDUM OPINION AND ORDER
David C. Godbey, United States District Judge
This Memorandum Opinion and Order addresses
Defendant Pershing, LLC’s (“Pershing”) motion for

App. 29
summary judgment. Because Plaintiffs’ claims are
time-barred, the Court grants the motion.
I.

THE ORIGINS OF THE DISPUTE

This action arises out of the Ponzi scheme perpetrated by R. Allen Stanford, his associates, and various
entities under his control for several years. The facts
associated with Stanford’s scheme are well established, see, e.g., Janvey v. Democratic Senatorial Campaign Comm., 712 F.3d 185, 188–89 (5th Cir. 2013), and
are not recounted in great depth here. At root, the
scheme was based on Stanford’s sale of fraudulent certiﬁcates of deposit (“CDs”) through an offshore bank
located in Antigua, known as Stanford International
Bank Limited. While Stanford represented to investors
that the CD proceeds were invested only in low-risk,
stable funds, in reality the proceeds were funneled into
speculative real estate investments and used to support Stanford’s lavish lifestyle. Stanford’s scheme ﬁnally came to public light on February 17, 2009 when
the Securities and Exchange Commission (“SEC”) issued a report charging Stanford and his entities with
fraud.
Plaintiffs here are former investors in Stanford’s
Ponzi scheme. They ﬁled this suit against Pershing, a
ﬁnancial services ﬁrm that they allege served as clearing broker for Stanford Group Company, on November
20, 2013. The allegations in this suit are similar to
those previously raised in the class action against

App. 30
Pershing titled Turk v. Pershing, LLC, No. 3:09-CV2199-N, 2014 WL 12717194 (N.D. Tex. ﬁled Nov. 18,
2009) (the “Turk Suit”). Initially ﬁled in the Southern
District of Florida, the instant case was subsequently
transferred to this Court for pretrial proceedings as
part of the Stanford multidistrict litigation. Plaintiffs
assert two claims in this action: one for fraud and another for participation in a breach of a ﬁduciary duty.
Because both claims are time-barred, the Court grants
Pershing’s motion for summary judgment.
II.

THE SUMMARY JUDGMENT STANDARD

Courts “shall grant summary judgment if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” FED. R. CIV. P. 56(a); Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 247, 106 S.Ct. 2505,
91 L.Ed.2d 202 (1986). In making this determination,
courts must view all evidence and draw all reasonable
inferences in the light most favorable to the party opposing the motion. United States v. Diebold, Inc., 369
U.S. 654, 655, 82 S.Ct. 993, 8 L.Ed.2d 176 (1962). The
moving party bears the initial burden of informing the
court of the basis for its belief that there is no genuine
issue for trial. Celotex Corp. v. Catrett, 477 U.S. 317,
323, 106 S.Ct. 2548, 91 L.Ed.2d 265 (1986).
When a party bears the burden of proof on an issue, she “must establish beyond peradventure all of the
essential elements of the claim or defense to warrant
judgment in [her] favor.” Fontenot v. Upjohn Co., 780

App. 31
F.2d 1190, 1194 (5th Cir. 1986) (emphasis omitted).
When the nonmovant bears the burden of proof, the
movant may demonstrate entitlement to summary
judgment by either (1) submitting evidence that negates the existence of an essential element of the nonmovant’s claim or afﬁrmative defense, or (2) arguing
that there is no evidence to support an essential element of the nonmovant’s claim or afﬁrmative defense.
Celotex, 477 U.S. at 322–25, 106 S.Ct. 2548.
Once the movant has made this showing, the burden shifts to the nonmovant to establish that there is
a genuine issue of material fact such that a reasonable
jury might return a verdict in its favor. Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
586–87, 106 S.Ct. 1348, 89 L.Ed.2d 538 (1986). Moreover, “[c]onclusory allegations, speculation, and unsubstantiated assertions” will not sufﬁce to satisfy the
nonmovant’s burden. Douglass v. United Servs. Auto.
Ass’n, 79 F.3d 1415, 1429 (5th Cir. 1996) (en banc). Indeed, factual controversies are resolved in favor of the
nonmoving party “ ‘only when an actual controversy
exists, that is, when both parties have submitted evidence of contradictory facts.’ ” Olabisiomotosho v. City
of Houston, 185 F.3d 521, 525 (5th Cir. 1999) (quoting
McCallum Highlands, Ltd. v. Washington Capital Dus,
Inc., 66 F.3d 89, 92 (5th Cir. 1995)).

App. 32
III. THE COURT GRANTS
PERSHING’S MOTION
Pershing moves for summary judgment on both of
Plaintiffs’ claims on the grounds that (1) both claims
are time-barred, (2) Plaintiffs cannot establish any of
the elements of their fraud claim, and (3) Plaintiffs’
participation in a breach of a ﬁduciary duty claim fails
on the merits. In holding that both claims are indeed
time-barred, the Court need not—and thus does not—
reach Pershing’s alternative grounds for summary
judgment.1
A.

Plaintiffs’ Fraud Claim is Time-Barred

Under Florida law, fraud claims are subject to a
four-year statute of limitations. See FLA. STAT.
§ 95.11(3)(j) (1991); see also Goodwin v. Sphatt, 114
So.3d 1092, 1094 (Fla. Dist. Ct. App. 2013). Although
claims generally begin to accrue when the last element of the cause of action occurs, Florida applies the
delayed discovery doctrine to fraud claims. Davis v.
Monahan, 832 So.2d 708, 709 (Fla. 2002). Under this
doctrine, a fraud claim does not accrue until the plaintiff discovers, or reasonably should have discovered
1

Because each concerns Pershing’s alternative grounds for
summary judgment, the Court denies Plaintiffs’ motion for leave
to ﬁle notice of supplemental authority, Pershing’s motion for
leave to ﬁle ﬁrst notice of supplemental authority, and Pershing’s
motion for leave to ﬁle second notice of supplemental authority.
Accordingly, the Court also denies as moot Plaintiffs’ motion to
strike Pershing’s motion for leave to ﬁle ﬁrst notice of supplemental authority.

App. 33
with the exercise of due diligence, the facts giving rise
to the claim. Hearndon v. Graham, 767 So.2d 1179,
1184 (Fla. 2000).
Plaintiffs ﬁled the instant action on November 20,
2013. Thus, absent any tolling, this action is timely if,
at the earliest, Plaintiffs ﬁrst discovered, or reasonably
should have discovered, the facts giving rise to their
fraud claim on November 20, 2009. On one hand, Pershing argues that Plaintiffs’ fraud claim began accruing on February 17, 2009 when the SEC ﬁrst publicly
reported Stanford’s scheme. Plaintiffs, on the other
hand, contend that they neither discovered nor reasonably should have discovered Pershing’s role in the
scheme until November 18, 2009 when the Turk Suit
was ﬁled. But, even assuming Plaintiffs’ fraud claim
did not begin accruing until November 18, 2009, their
claim is still two days untimely.
As a result, Plaintiffs resort to tolling doctrines in
an attempt to render their fraud claim timely. In particular, Plaintiffs offer three such doctrines: tolling under American Pipe & Construction Co. v. Utah, 414 U.S.
538, 94 S.Ct. 756, 38 L.Ed.2d 713 (1974); tolling while
the Turk Suit was stayed pending an appeal; and equitable tolling due to fraudulent concealment. However,
each of these tolling doctrines is unavailing.
1. American Pipe Tolling Is Inapplicable to
Florida State Law Claims.—Under American Pipe,
individual claims are tolled during the pendency of a
class action suit until class certiﬁcation is denied or the
individual ceases to be a class member. See 414 U.S. at

App. 34
554, 94 S.Ct. 756; see also Crown, Cork & Seal Co. v.
Parker, 462 U.S. 345, 350, 103 S.Ct. 2392, 76 L.Ed.2d
628 (1983). Here, Plaintiffs invoke American Pipe tolling from November 18, 2009, the date the Turk Suit
was ﬁled before this Court, to June 25, 2010, the date
the class deﬁnition in the Turk Suit was modiﬁed to
exclude Plaintiffs. Allowing this approximately sevenmonth period of tolling would render Plaintiffs’ fraud
claim timely. But, unfortunately for Plaintiffs, American Pipe tolling is inapplicable to Florida state law
claims.
Time limitations on legal actions in Florida are
governed by the provisions of chapter 95 of the Florida
Statutes. Major League Baseball v. Morsani, 790 So.2d
1071, 1075 (Fla. 2001). In particular, section 95.051
“delineates an exclusive list of conditions” that can toll
the running of the statute of limitations. Id. (emphasis
added). In relevant part, section 95.051 reads as follows:
(1) The running of the time under any statute of
limitations . . . is tolled by:
(a) Absence from the state of the person to
be sued.
(b) Use by the person to be sued of a false
name that is unknown to the person entitled
to sue so that process cannot be served on
him.
(c) Concealment in the state of the person to
be sued so that process cannot be served on
him.

App. 35
(d) The adjudicated incapacity, before the
cause of action accrued, of the person entitled
to sue. In any event, the action must be begun
within 7 years after the act, event, or occurrence giving rise to the cause of action.
(e) Voluntary payments by the alleged father of the child in paternity actions during
the time of the payments.
(f ) The payment of any part of the principal
or interest of any obligation or liability
founded on a written instrument.
(g) The pendency of any arbitral proceeding
pertaining to a dispute that is the subject of
the action.
(h) The minority or previously adjudicated
incapacity of the person entitled to sue during
any period of time in which a parent, guardian, or guardian ad litem does not exist, has
an interest adverse to the minor or incapacitated person, or is adjudicated to be incapacitated to sue; except with respect to the statute
of limitations for a claim for medical malpractice as provided in § 95.11. In any event, the
action must be begun within 7 years after the
act, event, or occurrence giving rise to the
cause of action.
...
(2) No disability or other reason shall toll the
running of any statute of limitations except those
speciﬁed in this section. . . .

App. 36
FLA. STAT. § 95.051 (1991) (emphasis added). Notably,
the above list excludes tolling based on the pendency
of a class action, as American Pipe tolling provides.
And none of the enumerated grounds for tolling applies
to the instant case.
Despite this clear statutory language, the parties
still disagree about whether American Pipe tolling can
apply to Florida state law claims. Both sides point to
conﬂicting case law on the issue. Compare Pershing’s
Mem. in Supp. of Mot. for Summ. J. (“Persh.’s Mot.”)
16–17 (collecting cases declining to apply American
Pipe tolling to Florida claims) with Pls.’ Mem. in Opp.
to Pershing’s Mot. for Summ. J. (“Pls.’ Resp.”) 38–39
(collecting cases allegedly applying American Pipe
tolling to Florida claims). But neither side can cite
an instance of a Florida state court, much less the
Supreme Court of Florida, explicitly applying or declining to apply American Pipe tolling. Thus, as a
transferee court adjudicating this case based on diversity jurisdiction, this Court must make an Erie determination as to what Florida’s highest court would
decide if it were to address the issue itself. See Erie R.
Co. v. Tompkins, 304 U.S. 64, 58 S.Ct. 817, 82 L.Ed.
1188 (1938).
Based on the clear language of the Florida Statutes, this Court holds that American Pipe tolling does
not apply to Florida state law claims. The District of
Columbia Circuit’s decision in In Re Vitamins Antitrust
Litigation succinctly explains this Court’s reasoning:

App. 37
The Florida legislature has enumerated eight scenarios in which the applicable statute of limitations is tolled, and a pending class action is not one
of them. FLA. STAT. § 95.051(1) (1991). The statute itself makes clear that “[n]o disability or other
reason shall toll the running of any statute of limitations except those speciﬁed in this section [or in
certain other sections not relevant here].” FLA.
STAT. § 95.051(2) (1991) (emphasis added). Also,
the Florida Supreme Court has plainly stated this
list represents the “exclusive list of conditions that
can ‘toll’ the running of the statute of limitations.”
Major League Baseball, 790 So.2d at 1075; see also
HCA Health Servs. of Fla., Inc. v. Hillman, 906
So.2d 1094, 1100 (Fla. Dist. Ct. App. 2004) (“Implicit in the court’s holding [in Major League Baseball] is the conclusion that in order for a doctrine
to ‘toll’ the statute of limitations, it must be included in the exclusive list of conditions set forth
in section 95.051(1).”).
183 Fed.Appx. 1, 2 (D.C. Cir. 2006) (cleaned up). At
least one sister circuit and two other district courts—
including one in Florida—have held the same. See
Becnel v. Deutsche Bank, AG, 507 Fed.Appx. 71, 73 (2d
Cir. 2013) (“Florida does not allow tolling during the
pendency of class action lawsuits no matter where they
are ﬁled.” (citing FLA. STAT. § 95.051(2) (1991))); Senger Bros. Nursery v. EI Dupont de Nemours & Co., 184
F.R.D. 674, 682–83 (M.D. Fla. 1999) (explicitly declining to apply American Pipe tolling to Florida state law
claims, including fraud); Dineen v. Pella Corp., 2015
WL 6688040, at *2–4 (D.S.C. Oct. 30, 2015) (holding
that section 95.051 of the Florida Statutes precludes

App. 38
American Pipe tolling and distinguishing cases allegedly to the contrary). Indeed, even American Pipe recognized the need for courts to defer to legislative
purpose. See 414 U.S. at 559, 94 S.Ct. 756 (holding that
federal courts have the power “to hold that the statute
of limitations is tolled under certain circumstances not
inconsistent with the legislative purpose” (emphasis
added)). Here, the Florida legislature has clearly spoken on the issue and this Court is bound by its language. American Pipe tolling hence does not apply
here.2
2. The Stay of the Turk Suit Did Not Affect
Plaintiffs’ Claim.—Plaintiffs next argue that the
statute of limitations was tolled from September 30,
2011 to May 21, 2012 while the Turk Suit was stayed
pending an appeal in a related case. Allowing this
nearly eight-month period of tolling would render
Plaintiffs’ fraud claim timely. But, as an initial matter,
such tolling due to a stay is not included on the
2

Even if American Pipe tolling did apply to Florida state law
claims, it would not apply here, where Plaintiffs seek crossjurisdictional tolling. See Dineen, 2015 WL 6688040, at *4 (“Moreover, even if the courts in Engle v. Liggett Group, Inc., 945 So.2d
1246, 1277 (Fla. 2006), and Lance v. Wade, 457 So.2d 1008, 1011
(Fla. 1984), adopted class action tolling, they certainly did not
adopt cross-jurisdictional class action tolling, which would be required to toll the statutes of limitations in this case. . . . The Sacred Heart Court even acknowledged that “[c]ases involving crossjurisdictional tolling provide less justiﬁcation for tolling.” Sacred
Heart Health Sys., Inc. v. Humana Military Healthcare Servs.,
Inc., 2008 WL 2385506, at *3 n.9 (N.D. Fla. June 9, 2008). Therefore, the Court ﬁnds that Florida law does not allow for crossjurisdictional class action tolling. . . .” (cleaned up)).

App. 39
exclusive list in section 95.051 of the Florida Statutes.
As a result, for the same reason that American Pipe
tolling is inapplicable here, so too is this tolling theory.
Moreover, even if such tolling was allowed in Florida,
Plaintiffs were not subject to the stay. Plaintiffs themselves concede that they were no longer members of
the proposed class in the Turk Suit as of June 25, 2010.
It would be nonsensical for Plaintiffs to be entitled to
tolling based on a stay that did not apply to them.
Perhaps recognizing the futility of their argument,
Plaintiffs misleadingly characterize the scope of the
stay at issue. In their response, Plaintiffs cite United
States v. Brichat for the proposition that a “stay or
other legal proceeding that prevents a party from exercising a legal remedy can be held to toll the operation
of a statute of limitations.” 129 B.R. 235, 238 (D. Kan.
1991). However, the stay here was not of “all Stanford
[multidistrict litigation] proceedings” as Plaintiffs
claim, Pls.’ Resp. 39, but instead only of the Turk Suit.
See Order in the Turk Suit. During the pendency of
the stay, Plaintiffs were therefore not prevented from
“exercising any legal remedy,” Brichat, 129 B.R. at 238,
such as ﬁling a new lawsuit, thereby undercutting the
tolling rationale they proffer. Because the stay in the
Turk Suit did not impact Plaintiffs’ claim, they are not
entitled to tolling on the basis of that stay.
3. Plaintiffs Were Too Late Even If Equitable
Tolling Based on Fraudulent Concealment Applied.—Plaintiffs ﬁnally contend that, even if their
fraud claim accrued on February 17, 2009 when the
SEC ﬁrst publicly reported Stanford’s scheme, the

App. 40
statute of limitations was tolled for nine months because Pershing fraudulently concealed its involvement
in the scheme. In support of this argument, Plaintiffs
point to an allegedly misleading afﬁdavit Pershing provided the SEC on February 12, 2009. Although Plaintiffs do not state the exact end date of this equitable
tolling period, it would have ended no later than November 18, 2009 when, as Plaintiffs claim, they became
aware of Pershing’s involvement in Stanford’s scheme
when the Turk Suit was ﬁled. But, even if this equitable tolling applied, Plaintiffs’ fraud claim, ﬁrst ﬁled on
November 20, 2013, would be untimely by two days.
The Court thus need not determine whether Plaintiffs
are entitled to equitable tolling due to Pershing’s
fraudulent concealment. Either way, Plaintiffs’ fraud
claim is foreclosed as a matter of law.
B. Plaintiffs’ Participation in a Breach
of a Fiduciary Duty Claim is Time-Barred
The parties agree that claims for participation in
a breach of a fiduciary duty in Florida are subject
to a four-year statute of limitations. See Am. Home
Assur. Co. v. Weaver Aggregate Transp., Inc., 990
F.Supp.2d 1254, 1271 (M.D. Fla. 2013) (“Claims for
breach of fiduciary duty in Florida are subject to a
four-year statute of limitations. . . .”); FLA. STAT.
§ 95.11(3)(o) (1991) (stating that “any other intentional
tort” shall be commenced within four years). The parties disagree, however, as to whether such claims are
subject to the delayed discovery rule. On the one hand,
Pershing argues that the delayed discovery rule does

App. 41
not apply and thus Plaintiffs’ participation in a
breach of a fiduciary duty claim began accruing on
February 17, 2009 when the SEC first publicly reported Stanford’s scheme. See Persh.’s Mot. 14–15.
Plaintiffs, on the other hand, contend that the delayed
discovery rule applies and therefore Plaintiffs’ participation in a breach of a fiduciary duty claim did not
begin accruing until November 18, 2009 when Plaintiffs first discovered Pershing’s role in the scheme
with the filing of the Turk Suit. See Pls.’ Resp. 36. But,
even assuming Plaintiffs are correct that the delayed
discovery doctrine applies to this claim and it hence
did not begin accruing until November 18, 2009, their
claim—filed on November 20, 2013—is still two days
untimely.
As a result, Plaintiffs require a tolling doctrine to
render their participation in a breach of a ﬁduciary
duty claim timely. To this end, Plaintiffs offer three
such doctrines: American Pipe tolling, tolling while the
Turk Suit was stayed pending an appeal, and equitable
tolling due to fraudulent concealment. But, as explained previously, each of these tolling doctrines is unavailing in the instant case. See supra sections
III(A)(1)-(3). Plaintiffs’ participation in a breach of a ﬁduciary duty claim is therefore also foreclosed as a
matter of law.
CONCLUSION
Because both of Plaintiffs’ claims in this case are
time-barred, the Court grants Pershing’s motion for

App. 42
summary judgment. By separate document of this
same date, the Court issues ﬁnal judgment for Pershing.

